No. 20-1376

In the Supreme Court of the United States
MICHAEL ABATTI AND MIKE ABATTI FARMS, LLC,
v.

Petitioners,

IMPERIAL IRRIGATION DISTRICT,
Respondent.
On Petition for a Writ of Certiorari to the
California Court of Appeal, Fourth Appellate District

REPLY BRIEF FOR PETITIONERS
H. CHRISTOPHER BARTOLOMUCCI
Counsel of Record
KATHRYN E. TARBERT
SCHAERR | JAFFE LLP
1717 K Street NW, Suite 900
Washington, DC 20006
(202) 787-1060
cbartolomucci@schaerr-jaffe.com
THEODORE A. CHESTER, JR.
MUSICK, PEELER & GARRETT LLP
624 South Grand Avenue, #2000
Los Angeles, CA 90017
Counsel for Petitioners

TABLE OF CONTENTS
TABLE OF AUTHORITIES ………………………....... ii
REPLY BRIEF FOR PETITIONERS…...……………. 1
A.

The Court of Appeal Misapplied Federal
Law in Conflict With Decisions From This
Court, Other Authorities, and the District’s
Own Position in Bryant. ……………………….. 2

B.

The Abattis Did Not Forfeit Their Claim
Under the Reclamation Act. …………………... 7

C.

The Decision Below Has Already Injured,
and Continues to Harm, Imperial Valley
Landowners. ………………………………….… 10

CONCLUSION ………………………………………… 12

ii
TABLE OF AUTHORITIES
Cases
Arizona v. California,
373 U.S. 546 (1963) ……………………………....… 6
Arizona v. California, 460 U.S. 605 (1983) …….….. 11
Bryant v. Yellen, 447 U.S. 352 (1980) ……….... passim
California v. United States,
438 U.S. 645 (1978) ……………………………….… 6
Ickes v. Fox, 300 U.S. 82 (1937) ………………….... 6, 7
Lebron v. Nat’l R.R. Passenger Corp.,
513 U.S. 374 (1995) ……………………………….. 10
Nebraska v. Wyoming,
325 U.S. 589 (1945) ……………………………… 6, 7
Nevada v. United States,
463 U.S. 110 (1983) ……………………………… 6, 7
Truckee-Carson Irrigation Dist. v.
Sec’y of the Dep’t of the Interior,
742 F.2d 527 (9th Cir. 1984) …………………….... 8
Statutes
Reclamation Act § 8, 43 U.S.C. § 372 (1902) .… passim
Boulder Canyon Project Act,
43 U.S.C. § 617e (1928) ………………………….. 5, 7
Other Authorities
MILTON N. NATHANSON, BUREAU OF RECLAMATION,
U.S. DEP’T OF THE INTERIOR, UPDATING THE
HOOVER DAM DOCUMENTS (1978) ……………… 8, 9

REPLY BRIEF FOR PETITIONERS
The District does not deny the decision below
conflicts with opinions from the Ninth Circuit, the
Supreme Court of New Mexico, and the Department of
the Interior. Pet. 29-32. It does not contest that, given
this conflict, future determinations of Californian
landowners’ water rights will turn on whether the
decisions are made in state or federal court. Pet. 1516, 29-30. Nor does the District dispute the decision
below has slashed the property values of hundreds of
thousands of acres of Imperial Valley farmland. Pet.
32.
Instead, the District asserts that the court below
correctly applied this Court’s decision in Bryant v.
Yellen, 447 U.S. 352 (1980); the District should not be
held to the position it urged in that case; and federal
law has no role to play in the distribution of water
under projects the federal government funded. BIO
11-16. Those are merits arguments, not reasons to
deny certiorari, and they are wrong.
Unable to claim the questions presented are not
certworthy, the District contends the Abattis forfeited
the argument that their water rights are protected by
the Reclamation Act. BIO 17-18. That is also
incorrect: the Abattis repeatedly cited and relied on
that Act below, and Bryant applied that very law. This
Court should grant the petition, resolve the conflict in
the lower courts, and reaffirm the water rights
protected by federal law.

2
A. The Court of Appeal Misapplied Federal Law
in Conflict With Decisions From This Court,
Other Authorities, and the District’s Own
Position in Bryant.
The District’s primary argument against granting
certiorari is that the decision below is correct. The
District claims the Abattis’ case “is premised on the
notion” that Bryant held Imperial Valley landowners
(1) “have a federally protected right to water from the
public irrigation district,” and (2) “have a federally
protected and irrevocable right to a particular
allocation of water.” BIO 1 (emphasis in original).
The District insists Bryant “held neither.” Id. That is
a merits argument, not a reason to deny certiorari,
and it is in any event wrong.
1. First, the District mischaracterizes the Abattis’
arguments. “The Abattis have never argued that they
are entitled to a specific quantity of water.” CrossAppellants’ Reply Br. 25 (emphasis omitted). On the
contrary, the Abattis have consistently asserted that
they and other “Imperial Valley farmers have water
rights that are appurtenant to their lands and
protected under federal law,” and the District violated
those rights by adopting a distribution plan that
allowed water to be transferred to those who lacked
rights of their own. Pet. 15; id. at 11 (objecting that
District’s plan “nullified” their water rights and
“transferred their rights to other users without
compensation”); accord Combined Respondents’ Br. &
Cross-Appellants’ Br. 19 (“Combined Br.”) (“The trial
court correctly held that IID’s plan granted
distribution priority to persons who do not beneficially
own appurtenant water rights, and thereby wrongly

3
subordinated the interests of Farmers, including the
Abattis, that do, thus violating Farmers’ appurtenant
rights and the ‘no injury’ rule of water law”).
2. In addition, the District misreads Bryant when it
insists the Court “nowhere suggested … that the
landowners themselves had any federally protected
‘present perfected rights.’” BIO 7-8, 12. In fact,
Bryant rejected as “unpersuasive” the Ninth Circuit’s
conclusion that “the perfected rights in Imperial
Valley were owned by and would be adjudicated to the
District, not to individual landowners.” Bryant, 447
U.S. at 369. One of the reasons Bryant gave for
declining to apply an acreage limitation was that such
a restriction would “substantially limit[] … the rights
of[] the farmer-beneficiaries in the District.” Id. at 373
(emphasis added).
The Court confirmed in an
accompanying footnote that “the congressional
intention” in passing laws governing the Boulder
Canyon Project “was to insure that persons actually
applying water to beneficial use would not have their
uses disturbed by the erection of the dam.” Id. at 373
& n.24 (emphasis added). The Court reaffirmed that
a present perfected water right was acquired “by the
actual diversion of a specific quantity of water and its
application to a defined area of land.” Id. at 369-70; see
Pet. 19. And the Court specifically concluded that any
“right” nominally owned by the district was “equitably
owned by the beneficiaries to whom the District was
obligated to deliver water.” Bryant, 447 U.S. at 371.
None of that would make any sense if, as the District
contends, the “farmer-beneficiaries[’]” rights were
merely a right to “continued water service”—to receive
some indeterminate amount of water subject to

4
change at the District’s whim. BIO 14 (emphasis in
original). If that were the case, there would have been
little any federal project could have done to disturb the
farmers’ “rights” to begin with, as they would have
depended on the District’s discretion either way. It
would be nonsensical to say the present perfected
rights were defined by the actual application of water
“to a defined area of land” if those rights did not belong
to individual landowners but instead the District as a
whole. Bryant, 447 U.S. at 369-70. And if the District
were correct that the Bryant farmers’ rights were
limited to a “right to service,” that would mean the
District’s rights vis-à-vis the Secretary of the Interior
were limited to the same: the Court explicitly
recognized the farmers as the “equitable[] own[er]s” of
the water rights the District claimed. Id.
3. Clearly the District does not believe that is the
case. The District cannot deny that in its briefing in
Bryant, it asserted that “[t]he landowners, as the
equitable owners of the present perfected rights, have
a constitutionally protected interest therein.” Bryant
Reply 18. The District nonetheless argues it should
not be held to that position under the doctrines of issue
preclusion and judicial estoppel because (1) the
District was actually arguing for the farmers’ “right to
continued water service,” not an appurtenant water
right, and (2) Bryant stated that “it may be true” that
“no individual farm in the District has a permanent
right to any specific proportion of the water held in
trust by the District.” BIO 14 (quoting 477 U.S. at
369-70) (BIO’s emphasis). Neither contention has
merit.

5
First, the briefing in Bryant belies the District’s
current claim that it merely asserted a right to
continued service. The District expressly referred to
landowners as “equitable owners of the present
perfected rights,” Bryant Reply 18, and equated its
own rights with those of the farmers under federal
law: “The notion that the District alone is protected
against impairment of present perfected rights, and
not the landowners who are the equitable owners of
those rights under the laws of California, is also in
collision with § 8 of the Reclamation Act of 1902[.]”
Bryant Pet. 17. Furthermore, the District argued that
“Section 6 of the Project Act, in requiring the
‘satisfaction’ of present perfected rights, and Article
VIII of the Compact, in providing that present
perfected rights are ‘unimpaired,’ expressly determine
… priority,” that is, who has a superior claim to the
water. Bryant Reply 17 (emphasis added).
It is irrelevant that Bryant expressed some
uncertainty regarding whether landowners were
entitled to a specific proportion of water. Again, that
is not the Abattis’ claim. Supra, at 2. The Court’s
equivocation on proportionality does not change its
recognition that the water rights before it were
“equitably owned by the beneficiaries to whom the
District was obligated to deliver water,” and
“appurtenant to their lands,” 477 U.S. at 371 & n.23,
just as the District had argued (see Bryant Reply 18).
The District’s contrary arguments in this case should
be precluded under the doctrines of issue preclusion
and judicial estoppel. Pet. 20-26.
4. Lastly, the District misreads Bryant in claiming
it “ultimate[ly] h[eld] that federal law preserves state

6
and local discretion over water allocation,” and “there
is no basis in federal law for the federal government to
encroach on the core state function of determining how
limited water should be allocated.” BIO 16. 1
Contrary to the District’s claims, this Court has
ruled that “Congress did not intend to relinquish total
control of the actual distribution of the reclamation
water to the States.” California v. United States, 438
U.S. 645, 668 n.21 (1978). The Court has expressly
(and repeatedly) “disposed of” “[t]he argument that § 8
of the Reclamation Act requires the United States in
the delivery of water to follow priorities laid down by
state law,” and refused to “hold that the Secretary
must be bound by state law in disposing of water
under the Project Act.” Arizona v. California, 373 U.S.
546, 586-87 (1963) (citing previous cases). Although
present perfected rights must be acquired consistent
with state law, Bryant confirms that those rights are
“defined” by federal rule: the question whether a water
right constitutes a protected “present perfected right[]
within the meaning of [the Project Act] is obviously
one of federal law.” 447 U.S. at 364-65, 371 n.22. 2
At one point, the District even suggests the Court should deny
certiorari because adjudication of the Abattis’ rights presents a
“pure question of state law.” BIO 13. That argument is meritless,
which the District ultimately concedes by admitting there is,
indeed, a “federal aspect of [the] first question presented”: the
question whether petitioners “have any federally protected water
rights.” Id. The inexplicable but increasingly popular insistence
that federal law has no role to play in determining water rights
is a reason to grant certiorari, not to deny it. Pet. 33 (noting
similar arguments in other litigation).
1

2 The District’s reliance on Ickes v. Fox, 300 U.S. 82 (1937);
Nebraska v. Wyoming, 325 U.S. 589 (1945); and Nevada v.

7
The Court could not have reached any other
conclusion: the Reclamation Act requires that water
rights be “appurtenant to the land irrigated,” and
provides that “beneficial use” will be “the basis, the
measure, and the limit of the right.” 43 U.S.C. § 372.
The Project Act specifies the three purposes for which
the Boulder Canyon dam and reservoir “shall be used.”
43 U.S.C. § 617e; see Bryant, 447 U.S. at 374 n.26
(rejecting as meritless argument that Act “merely
specifies priorities among those entitled to water from
the Project and is irrelevant in determining
entitlement itself”). This Court should grant the
petition and reaffirm the significant role federal law
plays in determining water rights under federal
projects.
B. The Abattis Did Not Forfeit Their Claim
Under the Reclamation Act.
1. Because the court of appeal accepted the District’s
misreading of Bryant, it is unsurprising that its
decision is also in conflict with opinions from the
Department of the Interior, the New Mexico Supreme
Court, and the Ninth Circuit. Pet. 26-32. These
sources all recognize that water rights under the
Reclamation Act belong to “landowners,” not
United States, 463 U.S. 110 (1983), is misplaced. BIO 19-20.
Each of those decisions applied federal law to hold water rights
were owned, not by the federal government by virtue of
involvement in a reclamation project, but by the landowners who
put the water to beneficial use. See Ickes, 300 U.S. at 95 (water
was appropriated for the use of, and became the property of,
landowners “under the Reclamation Act”); Nebraska, 325 U.S. at
614 (explaining how “[t]he water right is acquired” under “the
Reclamation Act”); Nevada, 463 U.S. at 123-25 (relying on Ickes’
and Nebraska’s interpretation of Reclamation Act).

8
irrigation districts or governmental entities. Id.; see,
e.g., Truckee-Carlson Irrigation Dist. v. Sec’y of the
Dep’t of the Interior, 742 F.2d 527, 530 (9th Cir. 1984)
(water district “d[id] not directly own any water rights.
Rather, the landowners within the service area
irrigated by the Newlands Project own water rights”).
2. The District does not deny these conflicts, nor
does it explain how farmers in California can be
expected to plan for the future now that their rights
depend on what government decides them. Instead,
the District insists that the Abattis forfeited any
argument regarding the Reclamation Act. That claim
is specious. To begin, the District itself acknowledges
several instances in which the Abattis “cited the Act”
and the court of appeal discussed the statute in the
briefing and opinion below. BIO 17 (citing App. 13a,
14a, 26a, 69a).
The District nonetheless insists the Abattis forfeited
the argument because they “omitted [the Act] from
[their] argument” below. BIO 17. That is not true.
The Abattis argued that they have a water right
appurtenant to their land that is protected by a
compilation of state and federal laws, including the
Reclamation Act, known as “the Law of the River.”
Combined Br. 17 & n.2 (summary of argument
explaining that “federal” “statutes and regulations”
are part of the body of law known as “the Law of the
River” that defines and protects their water rights); id.
at 21, 45, 47 (arguing District was bound to respect
farmers’ rights under Law of the River). The first
statute the Abattis discussed in their description of
the Law of the River was the Reclamation Act.
Combined Br. 23; see MILTON N. NATHANSON, BUREAU

9
RECLAMATION, U.S. DEP’T OF THE INTERIOR,
UPDATING THE HOOVER DAM DOCUMENTS 2 (1978)
(cited in Combined Br. 17 n.2) (describing Reclamation
Act as part of Law of the River).
OF

The Abattis also argued below that the District itself
relied on the Reclamation Act in determining
landowners’ water rights. In Bryant, the District
asserted that “each individual landowner has a
statutory right” to control his proportionate share of
the water rights held in trust by the District, and each
landowner’s “proportionate share” of those rights was
“appurtenant to the land on which the water is used.”
Combined Br. 55-56 (quoting District briefing). As the
Abattis explained below, those arguments “relied
upon section 8 of the 1902 [Reclamation] Act,” and the
Bryant “Court agreed with” them in reversing the
Ninth Circuit. Id. at 56, 57 (quoting the Reclamation
Act); see Cross-Appellant’s Reply Br. 34 (quoting
District brief and discussing Reclamation Act); Reply
in Support of Pet. for Review 7-8 (same); see also Pet.
for Review 17-19 (discussing Bryant’s application of
the Reclamation Act).
3. Regardless how the District mischaracterizes the
Abattis’ briefing, it is forced to concede that Bryant
itself applied the Reclamation Act to determine
landowners’ rights.
BIO 5 (admitting Bryant
“resolved a dispute about the application of two
federal statutes to IID. The first of those statues [was]
the Reclamation Act”). And there can of course be no
question that the correct application of Bryant was
thoroughly pressed and passed upon below. See, e.g.,
Combined Br. 47-59; App. 13a-14a, 25a-27a, 68a-69a,
110a-112a. The Abattis’ contention that they have

10
water rights protected by the Reclamation Act is not a
new claim, or even a new argument in support of their
consistent claim to federally protected rights; it is the
argument they have made all along, and it is properly
before this Court. Cf. Lebron v. Nat’l R.R. Passenger
Corp., 513 U.S. 374, 379 (1995) (“Once a federal claim
is properly presented, a party can make any argument
in support of that claim”).
C. The Decision Below Has Already Injured, and
Continues
to Harm,
Imperial
Valley
Landowners.
The District lastly suggests that review is
unwarranted because, it alleges, no farmer has been
denied the water needed for his crops. BIO 2, 20. As
a result, the District claims, the Abattis’ and Amici’s
descriptions of the agricultural problems created by
the decision below are “unfounded and premature.”
Id. at 2. The District is again mistaken.
1. As an initial matter, the District does not deny
the harm the decision below has already inflicted. See
Pet. 32. As the District previously recognized, “the
value of the water right … is all that gives worth” to
the Valley’s desert lands. Bryant Reply 9. The court
of appeal’s ruling that farmers have no such rights
damaged the value of hundreds of thousands of acres
of land, including that of the Abattis. Pet. 32-33.
2. Next, the District fundamentally misunderstands
the agricultural market. It insists that, because
farmers have thus far found a way to obtain the water
they need despite the District’s illegal distribution
plan, they have not been harmed by the decision
below. BIO 20. But farmers like the Abattis often
enter contracts with purchasers guaranteeing delivery

11
of crops in the future. Brief for California Farm
Bureau, et al. (“Amici Br.”) at 9-11; see Appellant’s
Amended Appendix 2217. And as Amici explain,
Imperial Valley farmers cannot reasonably make the
“on-going financial, legal, and contractual obligations”
necessary to support billions of dollars in agriculture
and related businesses when they can no longer
predict whether they will receive the water necessary
to support their crops.
Amici Br. 9-10. The
uncertainty caused by the decision below will cause
“farmers to reduce their investment and future
output,” id. at 12, to the detriment of consumers
nationwide, Pet. 32-33.
It is no answer to say, as the District suggests (BIO
21), that farmers should go back to court each year if
the District’s allocation of water is insufficient. The
injury here is not simply the loss of water in one
particular year; it is the loss of a water right that
farmers previously possessed for over one hundred
years. That injury is not remedied by annually
sending landowners before jurists to plead for
something to which they should already be entitled.
This Court has recognized that the “[c]ertainty of
rights is particularly important with respect to water
rights in the Western United States.” Arizona v.
California, 460 U.S. 605, 620 (1983). The Court
should grant the petition to put an end to the
uncertainty caused by the decision below, address the
important issues raised by this case, and reiterate that
Western landowners’ water rights are protected by
federal as well as state law.

12
CONCLUSION
For the foregoing reasons, the petition for certiorari
should be granted.
Respectfully submitted,
H. CHRISTOPHER BARTOLOMUCCI
Counsel of Record
KATHRYN E. TARBERT
SCHAERR | JAFFE LLP
1717 K Street NW, Suite 900
Washington, DC 20006
(202) 787-1060
cbartolomucci@schaerr-jaffe.com
THEODORE A. CHESTER, JR.
MUSICK, PEELER & GARRETT LLP
624 South Grand Avenue, #2000
Los Angeles, CA 90017
Counsel for Petitioners
JUNE 2021

